AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
RUTH MCLEAN
Petitioner
v.
800 DCLLC
Respondent

I, Frederick W. Wright, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by:
Ruth McLean
P.O. Box 137
Plainsboro, NJ 08536
(973) 222-4928
Pro Se Petitioner
On this 29th day of April 2021 I deposited three copies of the Petition for Writ of
Certiorari, with the United States Post Office to mail priority to the following:
Elizabeth L. Sokol, Esq.
Kostopoulos Rodriguez
550 West Merrill Street, Suite 100
Birmingham, MI 48009

Matthew A. Wurgaft, Esq.
Kravis & Wurgaft
201 Washington Street, Second Floor
Newark, NJ 07102

Filing to the Court has been perfected on the same date as above.

FREDERICK W. WRIGHT
Wright Appellate Services, LLC
1015 Chestnut Street, 517 Jefferson Building
Philadelphia, PA 19107
(215) 733-9870*FAX (215) 733-9872*(800) 507-9020

